RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-384

Penny Nichols Corn; Twyla Jennings,

Letitioners,
¥.

Mississippi Department of Public Safety;

ALBERT SANTA CRUZ, Individually and in his official

capacity as former Commissioner of the Mississippi

Department of Public Safety; MARSHALL FISHER,

In his official capacity as Commissioner of the

Mississippi Department of Public Safety,
Respondents.

In an abundance of caution, this certificate is submitted, though the Brief of the Amici
Curiae was submitted pursuant to Rule 33.2

As required by Supreme Court Rule 33.1(h), I, Stephen M. SHeppard, certify that the
Petition for a Writ of Certiorari in the foregoing case contains 5,907 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 26, 2020.

 

Counsel of Record

St. Mary's University School of Law
One Camino Santa Maria

San Antonio, TX 78229

(210) 601-0335 sheppard@stmarytx.edu
